<html>
<title> - AN OVERVIEW OF THE U.S. COAST GUARD'S MISSIONS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                 AN OVERVIEW OF THE U.S. COAST GUARD'S 
                             MISSIONS

=======================================================================

                                (114-13)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 15, 2015

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
        
                               ____________
                               
                      U.S. GOVERNMENT PUBLISHING OFFICE
94-182 PDF                WASHINGTON : 2015                      
_____________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e582958aa5869096918d808995cb868a88cb">[email&#160;protected]</a>  
        
        
        
        
        
        
        
        
        
        
        
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                             Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
TOM RICE, South Carolina             RICHARD M. NOLAN, Minnesota
MARK MEADOWS, North Carolina         ANN KIRKPATRICK, Arizona
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
MARK SANFORD, South Carolina         ELIZABETH H. ESTY, Connecticut
ROB WOODALL, Georgia                 LOIS FRANKEL, Florida
TODD ROKITA, Indiana                 CHERI BUSTOS, Illinois
JOHN KATKO, New York                 JARED HUFFMAN, California
BRIAN BABIN, Texas                   JULIA BROWNLEY, California
CRESENT HARDY, Nevada
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York
                                ------                                7

        Subcommittee on Coast Guard and Maritime Transportation

                  DUNCAN HUNTER, California, Chairman
DON YOUNG, Alaska                    JOHN GARAMENDI, California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
BOB GIBBS, Ohio                      CORRINE BROWN, Florida
MARK SANFORD, South Carolina         JANICE HAHN, California
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
CARLOS CURBELO, Florida              JULIA BROWNLEY, California
DAVID ROUZER, North Carolina         PETER A. DeFAZIO, Oregon (Ex 
LEE M. ZELDIN, New York                  Officio)
BILL SHUSTER, Pennsylvania (Ex 
    Officio)
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               WITNESSES

Vice Admiral Charles D. Michel, Deputy Commandant for Operations, 
  U.S. Coast Guard:

    Testimony....................................................     5
    Prepared statement...........................................    26
    Responses to questions for the record from Hon. Don Young of 
      Alaska.....................................................    32
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 



             AN OVERVIEW OF THE U.S. COAST GUARD'S MISSIONS

                              ----------                              


                       WEDNESDAY, APRIL 15, 2015

                  House of Representatives,
          Subcommittee on Coast Guard and Maritime 
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:06 p.m. in 
room 2253, Rayburn House Office Building, Hon. Duncan Hunter 
(Chairman of the subcommittee) presiding.
    Mr. Hunter. Good afternoon. The subcommittee will come to 
order. The subcommittee is meeting this afternoon to review how 
the Coast Guard allocates its assets and personnel to carry out 
each of its 11 statutory missions, as well as the challenges 
the Service faces in performing its missions and measuring 
performance.
    Under section 2 of title 14, the Coast Guard is responsible 
for a wide range of missions, from search and rescue, ice 
breaking, and marine environmental protection, to port security 
and drug interdiction. In fiscal year 2014, the Service 
responded to over 17,500 search and rescue cases, saving over 
3,400 lives; conducted over 21,000 safety, security, and 
environmental inspections of U.S.- and foreign-flagged vessels; 
and interdicted over 3,587 undocumented migrants and 140 metric 
tons of illegal drugs. Try to understand even a small part of 
that is more than we get in the entire country with every 
single law enforcement agency combined.
    These are impressive numbers, but they don't tell us 
exactly how well the Coast Guard is performing. One of the best 
ways to gauge the Coast Guard's capability to carry out its 
missions is to review mission performance data. In 2014 the 
Service used 23 different performance measures to track its 
success in meeting its mission goals. The Service stated that 
it met or exceeded 15 of 23, or 65 percent, of its performance 
measures.
    In December 2014, the DHS inspector general released its 
annual review of Coast Guard mission performance objectives for 
fiscal year 2013. The report indicated that the Coast Guard's 
total number of mission resource hours, the number of flight 
hours for aircraft and underway hours for boats and cutters, 
had fallen 17 percent since 2011.
    The Coast Guard has attributed this reduction in patrol 
hours and other issues affecting readiness to the fact that its 
fleets of aircraft and vessels are no longer reliable, having 
surpassed their service lives and become increasingly prone to 
failures. You got a bunch of old ships.
    Representing southern California, I am particularly 
concerned about the Service's capability and ability to secure 
our borders against illegal drugs and migrants, and maintain 
its defense readiness. I look forward to working closely with 
the Coast Guard and my colleagues to get new assets operating 
as quickly as possible and to find other ways to improve 
readiness and enhance mission performance in a cost-effective 
manner.
    I thank the witnesses for coming--the witness, Admiral. And 
I look forward to your testimony. With that, I yield to Ranking 
Member Garamendi.
    Mr. Garamendi. Mr. Chairman, thank you for putting this 
hearing together. I enjoy working with you, and working with 
the Coast Guard on the maritime issues.
    Admiral Michel, thank you very much for being here. 
Appreciate the conversation we had in my office a couple of 
days ago. And we will probably cover some of those issues yet 
again. I see that our ranking member of the full committee is 
here, and he gets rather excited about some of these things, 
too.
    As I have mentioned at prior hearings, the Coast Guard is 
indispensable to commerce, to this Nation's security, and 
environmental protection of this Nation. A maritime, 
multimission military service, the Coast Guard is responsible 
for the safety and security of our Marine Transportation 
System, a diverse, intermodal network that moves more 
waterborne cargo and $649 billion worth of cargo annually, and 
about 13 million jobs.
    Unfortunately, the Coast Guard, apparently, is a victim of 
its own success, often overlooked by policymakers who are 
looking at all the other things that we need to do, and forget 
about the Coast Guard. You are always there, you are always 
ready to call, and we always--whenever you are called upon, you 
do the job. Maybe if you didn't one day, somebody would be 
paying more attention. Paradoxically, it can be said the Coast 
Guard is a victim of your own success. And if you take a look 
at 9/11, Superstorm Sandy, and other tragedies that hit this 
Nation, the Coast Guard is there, providing service that nobody 
thought you did--could do, but you did.
    And, to its credit, the Coast Guard has responded 
professionally and competently and effectively on the many 
challenges for homeland security, most of which were enunciated 
by our chairman just a moment ago, and I will simply echo what 
he said.
    And so, Mr. Chairman, I thank you for putting together this 
hearing. I look forward to the information that we receive, and 
get on with making sure the Coast Guard has all the assets it 
needs, including icebreakers. We like icebreakers.
    [Laughter.]
    Mr. Garamendi. And a few other things. And, as this hearing 
commences, there are a few things I will toss in with some 
questions and some comments along the way.
    Mr. Hunter. Thank the ranking member. And I would like to 
recognize Mr. DeFazio here, because it is not very often we get 
such important people at our little subcommittee.
    [Laughter.]
    Mr. Hunter. The gentleman is recognized.
    Mr. DeFazio. I was wondering why we got delegated to this 
small room here, Mr. Chairman. Thank you, Mr. Chairman. Thanks 
for holding this hearing.
    You know, I can't think of another Federal agency that has 
as challenging a portfolio--you know, national defense, armed 
force, regulatory agency, humanitarian service, you know, 
Federal maritime law enforcement, border enforcement, and part 
of the intelligence network of the United States. So that is 
extraordinary. And I think John said it well. It is like 
sometimes I think the fact that you can do and you have done 
with diminished resources, it is not properly recognized by 
some of our colleagues here.
    You know, I was just at Station Newport, and they--I mean 
just looking around, this is so beautiful, I mean, this old 
building and this--``Yes, you know, we did it ourselves.'' 
Well, I can't remember the last time I was on an Army base or 
an Air Force base and, you know, went into the headquarters or 
a barracks and they said, ``Oh, yes, we did the work here 
ourselves, you know.'' No, that is not the way the other 
services work. So that is extraordinary. And I hope and I think 
Chairman Hunter and John and I all share the desire to do a 
little bit better by your needs.
    You got a lot of new challenges. And John referenced the 
icebreaker. I did have the privilege of visiting the icebreaker 
just last month, and was taken by the unique construct of it, 
the fact that it is essentially a design that can't be 
replicated by any shipyard in America, or maybe in the world 
today, that the alloy used in the ice band is absolutely 
unique, and I am really going to look forward to, when you haul 
it, to see what the integrity of that hull is.
    And if it is that great, I think we need definitely to look 
at the option of what John calls repurposing. I call gut-and-
stuff, which is, you know, turn it into a modern icebreaker, 
using that unique configuration, if that would be a more cost-
effective way to go, and a more expedient way to go. Plus, some 
of the spares you get off there, like the transistors from the 
sixties, and some of the critical functions could be used on 
the other icebreaker, until we can upgrade that one. So that is 
one particular concern, and I hope the committee will look 
favorably on that.
    And the other is, you know, when I look at the performance 
measure summary, I am distressed to see--I mean I am a boater, 
I live on a boat here, actually, in DC. And, you know, one of 
the things that--and I represent half the Oregon coast in a 
very cold-water environment and a difficult ocean. And to see 
that the percentage of people in imminent danger saved in the 
maritime environment was not met, and the percentage of 
people--and then the next one, the percent of time rescue 
assets are on-scene within 2 hours, and again, it wasn't met, I 
know you are trying, but I don't think we have given you the 
adequate resources.
    But I am going to say, given the fact that there were 
proposed cuts in two lifesaving stations, and one of them being 
Newport, in the center of the Oregon coast, that does half the 
rescues, and we would have had to divert assets either from 
Astoria or North Bend, which means, you know, a much longer 
flying time and, you know, is not going to help me with--on the 
scene within 2 hours, and I think that we would have--we would 
end up having casualties that could have been prevented.
    So, I partnered with some of my delegation and we said it 
couldn't be closed, and I am going to look for ways to help you 
deal with your budget problems, but I just can't support a 
closure of critical lifesaving stations. And I want to see 
those two Xs on the other side of the ledger when we get the 
next performance measure summary. And I want to do anything and 
everything I can to help you get there. So, thank you.
    Thank you, Mr. Chairman. Appreciate the opportunity.
    Mr. Hunter. Thank you. And if you want to address his 
questions, comments, or concerns right now, feel free. We will 
say that was the first recognized question.
    Admiral Michel. Sure. We can talk about a number of things. 
I know we are going to talk about the icebreakers in detail.
    But I am glad you really were able to see that, sir. And I 
would offer to any of the Members, I would be happy to 
accompany you up there, if you really want to take the 
flashlight tour of the Polar Sea. It truly is a unique ship, 
and designed for a very specific purpose in a very specific 
environment. And we haven't built a ship like that in this 
country for over 40 years.
    We are going to have to figure out what we are going to do 
with Polar Sea. I am desperately trying to avoid an icebreaker 
gap. If we are going to build towards a new one, or use a 
refurbished one, or something like that, because there are--the 
Nation has current needs for heavy icebreaking capability, and 
right now we have one ship that is available to do that, and 
that causes me great concern. But I do appreciate you looking 
at that. Part of the survey work we are going to look at is 
going to look at, you know, how much it would take to get 7 to 
10 years' life, or even a longer period, if we can get out of 
there.
    My gut reaction on this, sir, is that ship is still 40 
years old, and we are going to have to take a hard look at 
that, as to whether we want to take that one back, or whether 
we want to try for something new. And, as a sailor, and as a 
naval engineer, you are going to have to take a very hard look 
at that, just because it is a very unique capability, and it 
operates under tremendous conditions. I mean this ship can 
crash through 21-foot-thick ice, and only us and the Russians 
operate these very unique ships. So I appreciate you taking a 
look at that.
    On AIRFAC Newport, roger that, sir. We got the message loud 
and clear, and we are working very hard to ensure that all our 
citizens throughout the United States are protected. We try 
very hard to meet our 2-hour standard. Last year we fell a few 
percentage points short. We would, obviously, always like to be 
100 percent. Sometimes we are not able to do that because of 
weather or different capabilities that we don't have. For 
example, some of the helicopter replacements we wanted to make 
along the way, we haven't been able to do that, because we 
don't have any flexibility in our helicopter system.
    But, believe me, when you talk search and rescue, sir, my 
goal 100 percent of the time is 100 percent of the people 
rescued, 100 percent meeting our standard. So eyes on search 
and rescue, sir. And I greatly appreciate the fact that you 
share that exact same concern for citizens. So thank you.
    Mr. DeFazio. Thank you. And just, you know, in--you know, 
when I went to the icebreaker, I also went down to the school 
at, you know, Cape Disappointment, where I understand the 
chairman went, but the chairman had what I am told was nice 
weather but big waves. I had unseasonably nice weather, and it 
was, as I was told by one officer, FAC, which is--which was not 
a fun ride.
    [Laughter.]
    Mr. DeFazio. So I now have to go back again and with a--I 
want to be like the video they show there, where you are 
crashing through those 18-foot waves, and everybody is like, 
``Woo,'' and you are all getting wet. And I want John to come 
with me. He is going to love the ride. It was so calm, they let 
me drive the boat.
    Admiral Michel. We will try to order up a storm for you.
    [Laughter.]
    Mr. DeFazio. OK, thank you.
    Thank you, Mr. Chairman.
    Mr. Hunter. Thank you. And I will now--belatedly, you are 
recognized for your statement, if you want to give one. 
Otherwise, we can go to questions, or whatever you like.

TESTIMONY OF VICE ADMIRAL CHARLES D. MICHEL, DEPUTY COMMANDANT 
                FOR OPERATIONS, U.S. COAST GUARD

    Admiral Michel. If I could make a brief statement, Chairman 
Hunter, Ranking Member Garamendi, Ranking Member DeFazio, 
members of the subcommittee, thank you for the opportunity to 
testify today on Coast Guard missions. My complete statement 
has been provided to the subcommittee, and I ask that it be 
entered into the record, and I be allowed to summarize my 
remarks.
    The Coast Guard is a global maritime service recognized for 
its ability to perform a broad and complementary set of 
maritime missions across vast geographic areas. Each of our 
diverse missions plays an essential and interrelated role in 
the Coast Guard's overall ability to perform its primary 
mission, which is ensuring the safety, security, and 
stewardship of the Nation's waters.
    The Coast Guard's missions, coupled with our broad array of 
authorities and culture of adaptability allow us the ability to 
rapidly shift from one mission to another as national 
priorities demand. The true value of the Coast Guard to the 
Nation is not in its ability to perform any single mission, but 
it is in its highly adaptive, multimission character, which can 
be applied across broad national maritime interests.
    The Coast Guard performs its missions by employing an 
expansive array of capabilities, competencies, authorities, and 
partnerships. At all times an armed service, a Federal law 
enforcement agency, a regulatory agency, a humanitarian 
service, and a member of the U.S. intelligence community, the 
Coast Guard is uniquely positioned to confront the complex and 
evolving maritime risks of the 21st century. As such, the Coast 
Guard remains a unique and indispensable instrument of national 
and homeland security.
    The challenges the Coast Guard is confronting today 
transcend any single mission. Increasing risks are rapidly 
changing the maritime domain, creating new efficiencies in some 
areas, and additional mission demands in others. Transnational 
criminal organizations, technological advancements in maritime 
industries, increasing maritime activity, and reliance on the 
maritime transportation system, rapidly changing energy 
markets, cyber risks, diminishing ice coverage in the Arctic, 
shifting human migration patterns, and weakening sovereign 
nation states all pose significant challenges.
    These trends are driving increased and unprecedented 
demands across all our Coast Guard missions, and require 
strategic approaches that ensure safety of lives at sea; the 
Nation's maritime transportation system remains safe, secure, 
and effective; our sovereign maritime territories and resources 
are safeguarded; and our marine environment is adequately 
protected. These challenges coincide with fiscal pressures that 
demand ever-increasing effectiveness and efficiency in 
performance of all Coast Guard missions at a time when the 
Coast Guard must recapitalize critical operational assets in 
our aging fleet.
    As history has repeatedly shown, the fleet the Coast Guard 
is able to recapitalize today will constitute tools it must 
rely on to perform its missions many decades into the future. 
The Coast Guard disrupts smuggling organizations in the transit 
zone, where transnational criminal organizations are most 
vulnerable. These criminal networks are fueling epidemic 
regional violence, destabilizing governments, undermining rule 
of law, terrorizing citizens, and contributing to illegal 
migration from Central America to the United States. Protecting 
U.S. maritime borders, which encompasses the Nation's 
territorial seas, contiguous zone, and exclusive economic zone 
requires adaptable and coordinated approaches that utilize 
capable platforms.
    Hence, ongoing acquisition projects such as the C127-J 
Maritime Patrol Aircraft and the Offshore Patrol Cutter, which 
will replace our aging fleet of Medium Endurance Cutters, are 
essential to ensure the security of our homeland. As an armed 
force, the Coast Guard is fully engaged with the Department of 
Defense across the globe at the strategic, operational, and 
tactical levels, as part of our defense operations mission.
    The Coast Guard is also party to the cooperative maritime 
strategy with the Navy and Marine Corps, a strategy that has 
been revised to reflect emerging opportunities and challenges.
    In conclusion, while the Coast Guard's missions remain 
unchanged, the maritime challenges and opportunities of the 
Nation continually evolve. The Coast Guard's ability to perform 
a broad and complementary set of missions ensures the Service 
is always ready to meet the Nation's maritime security 
interests.
    Thank you for the opportunity to testify before you today, 
and for all you do for the men and women in the United States 
Coast Guard. I look forward to hearing your concerns and 
questions. Thank you.
    Mr. Hunter. Thanks, Admiral. And I would like to recognize 
Mr. Curbelo over here for the first question, if you don't 
mind. No one ever shows up, we are just so happy when people 
do, it is fun.
    [Laughter.]
    Mr. Curbelo. Thank you very much, Mr. Chairman. I come for 
you, to be honest with you.
    [Laughter.]
    Mr. Curbelo. And for the ranking member, as well.
    Admiral, thank you very much for being here today. I 
represent Florida's southernmost district. And, as my 
colleague, Ms. Frankel, can attest, we are big fans of the 
Coast Guard in the State of Florida, especially in my case, 
representing the Florida Keys. And we depend so much on the 
Coast Guard for our safety and for our security.
    Just to give some of my colleagues an idea of how 
significant the Coast Guard's mission is in south Florida, 1 
year ago this week the Coast Guard intercepted a shipment of 
3,300 kilos of cocaine on Miami Beach. Rough street value of 
that, $330 million. And this interdiction was part of the Coast 
Guard's Operation Martillo. In south Florida we use Spanish 
words for Coast Guard operations. That means ``hammer'' in 
English. That operation targets international shipments of 
cocaine coming into America, usually through south Florida.
    Admiral, last year General John Kelly, commander of the 
U.S. Southern Command, testified before the Senate Armed 
Services Committee that they're only able to intercept about 26 
percent of the drugs smuggled into the country from Latin 
America through Florida. This was his quote, ``Because of asset 
shortfalls, we are unable to get after 74 percent of suspected 
maritime drug smuggling. Without assets, certain things will 
happen. Much larger amounts of drugs will flow up from Latin 
America, we will do less and less engagement with our friends 
and partners in the region.''
    Can you comment a little on whether there has been any 
improvement in General Kelly's assessment of last year?
    Also, as much as you can, here in open session, what are 
the smuggling routes that have seen the greatest increase in 
traffic over the past few years, and the measures the Coast 
Guard has taken to address those threats?
    Admiral Michel. Yes, sir. Well, the figures have gotten a 
little bit better because our Commandant has increased the 
amount of ships that are available to JIATF South and the Coast 
Guard on those Western Hemisphere transit zones, smuggling 
routes.
    And I greatly appreciate you raising that, because this is 
one of the aspects of the Coast Guard that is absolutely 
critical. The maritime movement of cocaine--and virtually all 
the cocaine either moves by maritime or air, and the vast 
majority by maritime at some point of its voyage--is the 
tactical advantage that the United States has. And it is the 
United States Coast Guard with the international partners, with 
the Navy, who provide the tactical advantage.
    And you mentioned about 3.3 metric tons that were seized on 
that one particular piece. Last year, the United States Coast 
Guard seized--just the United States Coast Guard--91 metric 
tons of cocaine. All the law enforcement agencies within our 
borders--Federal, State, local, tribal, plus all the seizures 
at our air, land, and sea borders--and that includes the 
Southwest border--put together, multiply that by almost two 
times, and that is what the United States Coast Guard got.
    I used to be director of JIATF South there, in Key West, 
Florida. And when I was there, there was one Coast Guard 
boarding team that seized a semisubmersible that had 9.3 metric 
tons of cocaine. The typical take at the Southwest border on 
any given year is 6 or 8 metric tons. So one Coast Guard 
boarding team took down, for cocaine, what was taken down at 
the entire Southwest border in a year. And that is not to mean 
the people at the Southwest border are not great Americans 
doing a great job, but they are tactically disadvantaged 
because the Coast Guard boarding team is tactically exposed, 
out on the water, because it is necessary for shipment, 
concentrated loads of pure cocaine. And that single boarding 
team can take that down.
    And, oh, by the way, if you take it down on the water 
before it gets into Central America, it doesn't create the 
corruption and crime and death and destruction that we see with 
beheaded bodies and all these other things. Plus you get the 
witnesses and the evidence much closer to the head of the snake 
of the guys who are starting the chain in Colombia, and trying 
to work a kilo down from the Southwest border, or an eighth-of-
an-ounce buy on some street corner in New York City.
    So, the Nation--the reason the Coast Guard was created 
was--by Alexander Hamilton--was to take advantage of--that 
tactical advantage of intercepting things at sea. That is why 
the cutter service was created. But you need ships to do the 
business. So we are the Nation's forward defense for cocaine. 
We defend the streets of America. We defend our neighbors. And 
we use that tactical maritime advantage in order to get at it.
    And General Kelly is exactly right. We have way more 
intelligence than we do ships to actually action that 
intelligence. We are trying to buy some of that down. The 
Commandant has put additional ships down into the transit zone. 
But that is the Nation's defense, and it requires investments 
from the Nation in ships in order to get the business----
    Mr. Curbelo. So you would say that, despite your successes, 
you are still sorely lacking in resources in the area covered 
by JIATF South?
    Admiral Michel. Absolutely. And I will give you the latest 
figures on that. But my guess is, just based on operational--
probably 50 percent of the high-confidence intelligence cases 
cannot be acted on because there is no ship available.
    Mr. Curbelo. Thank you, Admiral. Thank you very much, Mr. 
Chairman. I appreciate it.
    Mr. Hunter. Thank the gentleman. The gentlelady from 
Florida is recognized.
    Ms. Frankel. Thank you. Thank you, Mr. Chair. First, I 
wanted to thank you from south Florida.
    I don't know if you followed this down in Florida. There is 
a--this is a great issue for the Committee on Transportation 
and Infrastructure, because we have a new rail line coming on 
board called All Aboard, which will be a direct route from 
Miami, Fort Lauderdale, West Palm Beach, Orlando. And it will 
go up and down 32 times. And it has to go over a couple of 
bridges that the boats need to go under. Are you familiar with 
that? Yes, yes. It is something.
    Well, you have taken on a great responsibility, because I 
know that you are--the Coast Guard is trying to figure out the 
schedule. And I just would like if you could just state for the 
record, from the Coast Guard's perspective, how do you--what is 
your policy, relative to the boating industry, in terms of the 
movement of those bridges?
    Admiral Michel. Well, I appreciate you bringing that up, 
because that is a part of the Coast Guard that many people 
don't know that the Coast Guard actually does, which is we 
administer all bridges over navigable waters of the United 
States. And we are--stand as the arbiter for these competing 
rights. I mean this is a classic public policy. I don't want to 
call it slicing the baby, but you can understand that the 
trains need to operate on their schedule at the same time. 
Because of the low clearances of the bridges, certain 
sailboats----
    Ms. Frankel. No clearance in Fort Lauderdale.
    Admiral Michel. Right, right. And if there is no clearance, 
then, obviously, no boats get by. Some of them are low enough 
maybe a motorboat can get under it. But bigger commercial 
traffic or sailboats can. It depends on the actual bridges.
    But we have got a whole process that we work through with 
all the stakeholders on this. And we try to, to the extent 
possible, meet people's needs. So we try to keep the openings 
predictable and responsive to the traffic that operates in that 
water, whether it is recreational traffic or commercial traffic 
or otherwise. At the same time, we work with the bridge owner, 
so that it doesn't become overly burdensome for them, because 
they may have to employ a bridge tender or other types of 
things. And they have also got to operate the trains.
    But we do an entire regulatory process, including public 
outreach, to make sure that we have heard all stakeholders. We 
have criteria that we judge against on, you know, when are 
adequate opening times, depending on the type of maritime 
traffic that comes through, depending on the needs of the train 
or surface operator, if it is a surface bridge. But we have a 
whole program that takes that.
    And this one, I can tell you, is at the upper levels of the 
Coast Guard, just because it is very important. It is an 
important project for the train operators, to be able to prove 
that they can do all this stuff. And we don't want the bridges 
to become an unreasonable obstruction to their business. At the 
same time, there are maritime operators who use those waterways 
for commercial purposes or recreational purposes or otherwise.
    Ms. Frankel. Well, especially in Fort Lauderdale, to the 
west of the bridge are most of the repair yards for the boats 
and the yachts. It is about a $39 billion industry there. So 
when the boats can't get under that bridge, it is a huge 
economic impact.
    On the other hand, we do want the railroad--the train to 
succeed.
    [Laughter.]
    Ms. Frankel. This is really a hard one. You know, so I 
guess you are very brave. You have no choice but to take it on. 
But I am glad it has trickled up to you, because this is a very 
serious issue for--especially for Fort Lauderdale. And up in 
Jupiter they have a similar issue there. So I will be following 
it closely.
    Admiral Michel. Well, I appreciate it, ma'am. And we have--
the beauty of it is we have great contacts down at the local 
level, and we have great experience with working through these 
processes. So we have actually got processes that encourage 
that public input.
    Ms. Frankel. Right.
    Admiral Michel. And we have a great track record. Not 
perfect, but a great track record of being able to find deals 
that people can live with, and folks can get their business 
done, and not get in each other's way too much.
    Ms. Frankel. All right. Well, thank you for your 
cooperation. We will stay in touch.
    I yield back.
    Mr. Hunter. Thank the gentlelady.
    OK. Admiral, thank you very much for being here. It was 
good to talk to you yesterday. Basically, the crux of this 
hearing is to ask a couple of things, and to find out what we 
can do for you, the Coast Guard, that the Coast Guard is either 
not doing for itself, or not communicating to your leadership 
or the administration.
    You guys took a massive cut, massive acquisition funding 
cut. You are the only department in Homeland Security that got 
cut the way that you did. Every other department in Homeland 
Security got more money. So I guess I would start--just the 
opening question for the whole hearing is, why do you think 
that is? I mean why would you get cut, and--when it--especially 
when you have ships that are 30, 40, 50 years old, where it is 
actually cutting down on your ability, even by your own 
metrics, to accomplish the missions that you have been given? 
Why would they cut you?
    Admiral Michel. Well, I can't make any comparison versus 
other parts of the Department of Homeland Security, and how 
they may or may not----
    Mr. Hunter. We already did it for you. And you were the 
only ones to get cut. So trust me.
    Admiral Michel. Right. So I can't do that comparison work, 
because I just don't sit in a chair high enough for that. And 
here is what I will say, sir----
    Mr. Hunter. No, but I do. But I am telling you that is what 
happened. So you don't have to do it, we have already done it. 
Right? You were the only ones who got cut that way, out of the 
entire department.
    Admiral Michel. Well, I mean, yes. You have analyzed the 
budget, yes, sir. So I will tell you that the biggest cut that 
we took was in our acquisitions account, and our acquisitions 
account which is, in my opinion, was one of the most critical 
accounts--because, as you and I have talked about before, that 
is what recapitalizes our aging assets--what I can say is that 
account is always at risk, because those are very expensive 
items that work through those accounts.
    Now, as I have described before, those items are 30-, 40-, 
50-year-old items. But getting them in a particular budget yet 
has always been challenging. So, the entire time I have been 
working with the AC&I account for the recapitalization of our 
fleet, that always is a very difficult object to move forward. 
And we are at about $1 billion right now. Our prior Commandants 
have testified that $1.5 billion to $2 billion is what we need 
for a responsible and efficient recapitalization. We obviously 
aren't at those numbers. We will work at the billion-dollar 
level, but those are always very tough sells, because they are 
very expensive assets.
    Mr. Hunter. So let me ask you this. If we just passed the 
President's budget request for you as-is, what would you stop 
building next year, or this year?
    Admiral Michel. Well, the budget, as it currently stands in 
fiscal year 2016, will allow us to continue with the Fast 
Response Cutter, including the recompetition of the Fast 
Response Cutter, which is supposed to occur in 2016. So we 
would be on track for that. It finishes out the work on the 
National Security Cutter, and we would be on track for that.
    The Offshore Patrol Cutter, there is $18 million in the 
fiscal year 2016 budget. We need another $70 million to do the 
detailed design work. Now, we have been told that there will be 
an internal reprogramming within DHS to give us that $70 
million. If we don't get that $70 million, then we are going to 
fall behind on the OPC, and it is going to get pushed further 
to the right. We have been told we are going to get that 
internal reprogram.
    If we get that, we can keep the OPC on track, understanding 
that, even if the OPC remains on track, as we have currently 
set it out on what our projected budgets are--and I know you 
have got our latest capital investment plan--the ships it 
replaces, the 270-foot class, will be over 35 years old when 
they come off the line, and the 210s will be over 55. And that 
is if everything stays on track.
    Mr. Hunter. And so you are saying--let me get this 
straight--with the President's request, if we don't add any 
money to the President's request, you can still finish out the 
FRC line, finish the last NSC, and even start with the OPCs. 
That is what you think?
    Admiral Michel. No, sir. Keep on track the FRCs. Remember, 
there are going to be 58 of these----
    Mr. Hunter. Keep on track the FRCs.
    Admiral Michel. We are up to 32----
    Mr. Hunter. Twenty-something left.
    Admiral Michel. Right. And the recompete will be for hulls 
33 through 58. But that will keep that line on track, and it 
has got six FRCs. So it doesn't complete the program, but it 
keeps it on track. It does complete the NSC program, and that 
would be at eight, and--which is the program of record.
    The OPC, as I said before, there is an identified $70 
million gap for the detailed design work. But we have been told 
that that will be taken care of through an internal reprogram.
    Mr. Hunter. Through DHS?
    Admiral Michel. Correct.
    Mr. Hunter. OK. All right. Thank you, Admiral.
    Mr. Garamendi?
    Mr. Garamendi. Let's just run through what Mr. DeFazio 
started. This is page 9, I think, of it, a 2013 performance 
measure summary. All of the ones on the left-hand side have 
been met, and we appreciate that. Thank you for doing that. The 
handful on the right-hand side, not met. Let's just run down 
through those quickly, and a quick why-not-met. What do you 
need to move from the right to the left? I don't know if you 
have--do you have this?
    Admiral Michel. I have a different document. Maybe you and 
I can talk about--I think we are talking about the same thing, 
but--well, you can just go down the list. I think I have got 
them covered here, sir.
    Mr. Garamendi. OK.
    Admiral Michel. I will have staff here look for the paper.
    Mr. Garamendi. Average number of commercial passengers 
deaths and injuries.
    I think it would be easier--you will be able to find them 
quicker on our list.
    Admiral Michel. So this was the 5-year average number of--
--
    Mr. Garamendi. Right.
    Admiral Michel. Which, commercial mariner deaths or----
    Mr. Garamendi. Commercial passenger.
    Admiral Michel. The commercial passenger deaths, OK. So, 
our--let's see. Our fiscal year 2014 target was less than 254, 
and our fiscal year 2014 results were at 306. And our fiscal 
year 2015 target is 304. So we were supposed to have had less 
than an average of 254, and we were up at 306 for commercial 
passenger deaths.
    Mr. Garamendi. And injuries. So I----
    Admiral Michel. And injuries. Yes, sir.
    Mr. Garamendi. Maybe we got a cruise ship out there that 
had an epidemic of flu or bad food or whatever.
    Admiral Michel. It could be a number of different things, 
because commercial passengers exist in different things. So 
they are small passenger vessels that operate on the Nation's 
waterways, ferries, and those type of things, and then there 
are also larger cruise ships--typically, is what you are 
talking about for passenger----
    Mr. Garamendi. I think the issue here is are you able to do 
the inspections?
    Admiral Michel. Yes, sir. Yes, sir. No, we are not behind 
on any issuance of certificate of inspections, particularly for 
passenger vessels, which are always on the Coast Guard's radar, 
because the public has an expectation that a common carrier is 
going to meet their standards.
    Mr. Garamendi. OK. Let's move on down the line. We are 
getting into Mr. DeFazio's Oregon coast here, and that has the 
percentage of people in imminent danger saved in maritime 
environment. You didn't meet your metric. Was this the shortage 
of the equipment that we just talked about?
    Admiral Michel. Yes, sir. There is two captured in there, 
the percentage of the people in imminent danger saved in the 
maritime environment, our goal is 100 percent, and won't ever 
be anything less than 100 percent, not from the Coast Guard. 
And we were able to--79.4 percent. I can tell you, having 
looked behind that, it is an inability to meet the 2-hour 
standards, particularly in certain offshore environments, and 
also in weather conditions.
    I will give you an example. Up on the Great Lakes--I was 
just up at Air Station Traverse City, up in Michigan, and they 
operate the HH-65 helicopter. And it meets the 2-hour 
standards, but it doesn't have any deicing capability. And in 
certain--and it doesn't have a very long range. So, in certain 
scenarios, it becomes harder to actually get to people who fall 
in the ice. And--or otherwise endangered up on the Great Lakes. 
And we have been looking at trying to get more capable 
helicopters up there, but there is just not enough helicopters 
in the inventory right now. It is a project--it is one of my 
projects that I am working on right now to try to get 
additional capability.
    But that is an example of where an equipment shortfall or 
mismatch could be remedied, if we were to have the flexibility 
in our system to reassign assets that sometimes we have and 
sometimes----
    Mr. Garamendi. Our chairman spoke a moment ago about us 
helping you meet your requirements. If you could match these 
shortfalls of your metrics to specific shortfalls of equipment 
or personnel or whatever, it then helps us with the argument. 
And helicopter, you talk about that earlier, but you put it in 
a general nature, now you are down to a specific icing 
situation. So if you could do that, it would help us make the 
argument.
    I am going to move on down to----
    Admiral Michel. Yes, sir, I will do that.
    Mr. Garamendi [continuing]. Security compliance rate for 
high-risk maritime facilities. We have moved way down to ports, 
waterways, and coastal security. High-risk maritime facilities. 
I assume these must be like--I suppose oil depots, things of 
that sort?
    Admiral Michel. Yes, high-risk maritime facilities would be 
exactly that description. I am looking at my sheet here to find 
out where the actual number is. And I wish I could tell you the 
number there, because I don't think that that number is 
anything but just a few percentage points off. And those are 
the types of facilities that we hold to a very high standard. 
And those facilities, I am telling you, we do not have a lack 
of assets in order to actually determine that compliance rate. 
So my guess is it is because of strict enforcement procedures.
    And, again, I wish I had the sheet here to tell you how 
many percentage points we missed that by----
    Mr. Garamendi. I am putting you in a real bind, so----
    Admiral Michel. Here it is. This is what I wanted to--my 
staff just gave it to me. So our goal was 100 percent, and we 
got 99.3 percent. So we missed .7 percent of those, sir.
    Mr. Garamendi. All right. We will move on down to 
percentage of undocumented migrants. We talked about this 
earlier. Again, it may be----
    Admiral Michel. Right. Our--again, we just missed by a 
couple percentage points. Our goal was greater than 74.1, and 
we were at 72.8. And again, I can tell you, having worked on 
migrants for a while, that is primarily a resource challenge, 
and also a maritime domain awareness challenge. A lot of these 
migrants come through on very small pangas and yolas, either 
through the Straits of Florida, or through the Mona Pass, or 
those type of areas. And sometimes they just slip through. And 
if you had better coverage out there, either with the aircraft 
or sensor systems or additional surface vessels, you could buy 
down that. But again, you know, I think we only missed it by a 
percentage point or so.
    Mr. Garamendi. I thought we might come to that. Over on the 
Armed Services Committee some of our work deals with ISR, 
intelligence, surveillance, reconnaissance. In the new NDAA--I 
haven't shared this with the chairman yet, but I represent 
Beale Air Force Base. And we have spent a lot of time with 
drones and ISR assets there. The Navy is getting a new asset 
called the--it is a Global Hawk, naval version.
    Admiral Michel. I think that is Triton, is that right?
    Mr. Garamendi. It is--yes, it is. And they will be 
operating that out of what I call Camp Malibu, otherwise known 
as Point Mugu, in Ventura. It will be operating, I suspect, in 
naval exercises off San Diego and various kind of training 
exercises and the like. I want you to look into working with 
the Navy on getting the information that they don't need, but 
they do have on ships and pangas and other things that are 
operating there. They are probably going to meet everything 
from night to daytime, and maybe doing it almost all the time.
    And so I am going to work this into the NDAA, so that we 
can cross-fertilize here. And you might have ISR assets 
available off the southern California coast that you don't even 
know about today. Or maybe you do know about it.
    Admiral Michel. Yes, sir. Well, I think you mentioned this 
to me last time at the other hearing, so I already put feelers 
out to do that. And, just coincidentally, I am flying to San 
Diego this afternoon to meet with--when she comes in with about 
12 metric tons of cocaine. And my host there will be the sector 
commander, who is actually a very close friend of mine, and he 
also participates in the regional coordinating mechanism there. 
And I am going to reiterate to him the importance of the 
opportunity you have identified, sir.
    Mr. Garamendi. We will work on the--with the chairman's 
help, work on the NDAA side, to make sure that they are aware 
of the opportunity that they have to help you.
    OK, there was another issue, and General Kelly was 
mentioned. And his work and your work interact. And you 
mentioned just a moment ago the lack of assets in the 
Caribbean.
    One of the assets that was discussed at a previous hearing 
some time ago was the ability to have a ship available to you 
on which you could position your aircraft--helicopters, 
principally. I assume that remains a problem. Could you discuss 
that shortage of equipment, particularly the kind of equipment 
that would be necessary to further interdict drugs? And I think 
particularly off the Central America coast.
    Admiral Michel. Yes, sir. So, about 80 percent of the flow 
now moves by go-fast boats, which are speed boats, very high-
powered, with engines, most of which operate at night. And the 
only way you can really interdict those is to shoot the engines 
out of them, and that is done via helicopter and a highly 
trained gunnery crew on that helicopter.
    So, in order to get to about 80 percent of the flow--and 
most of that is what we call littoral flow, where it operates 
relatively close to shore on both the eastern Pacific side and 
the Caribbean side, you need to have the ability to position 
those airborne use-of-force assets if you are really going to 
get at that threat stream. So that requires flight decks and, 
even better, mobile flight decks.
    So, you know, you can look at ideas like barges. But if 
they are not mobile, bad guys find out where they are very 
quickly, and they just don't go there any more. Mobile flight 
decks that are attached to things like Coast Guard cutters or 
Navy ships with good sensor capabilities, good command and 
control networks, that is really the name of the game, the 
ability to do day, night, airborne use of force from mobile 
flight decks, from ships with sophisticated sensors, and 
command and control capabilities. That is the Cadillac, that is 
the proven formula for operating against most of the 
traffickers down there.
    So, I have heard General Kelly mention--and there are 
places for a--for staging bases. And if someone were to offer 
one up, I am sure General Kelly could find a use for it. But 
the real nugget is, as I described, those flight deck-equipped 
ships. That is what we really need in order to get at that 
business, sir.
    Mr. Garamendi. I think we ought to explore something less 
than a Cadillac, and see if some sort of a semimobile platform, 
which might be a barge with a tug, or maybe some sort of a 
mobile barge, or some ship--perhaps a naval ship that is less 
than a Cadillac--might be available.
    We understand the flight deck, we understand the fueling. 
But I would like you to look into this in a more--and 
particularly with General Kelly on South Command, as to what 
might be useful, but not a Cadillac. We are not going to find a 
Cadillac any time soon, but we might be able to find a 
semimobile flight deck for you in some way. So we will work on 
it.
    Mr. Chairman, thank you for the extra time.
    Mr. Hunter. Thank the gentleman.
    Mr. Zeldin, recognized.
    Mr. Zeldin. Thank you, Mr. Chairman, and good afternoon, 
Admiral. I represent the First District of New York, which is 
on the East End of Long Island. Our congressional district is 
almost completely surrounded by water. Actually, I don't know 
if Carlos Curbelo or I--which one is closest to having a 
district completely surrounded by water. It is home of some of 
the most scenic beaches and boating destinations, a very heavy 
Coast Guard presence, obviously, all around the First 
Congressional District.
    As the high season--we also have--we are also home of the 
106th Air Rescue Wing. As the high season rapidly approaches, 
it is inevitable that the search-and-rescue capability of the 
Coast Guard will be called upon to help save lives of stranded 
boaters and swimmers off of eastern Long Island. I just wanted 
you to take this opportunity to let me know how you feel about 
the current search-and-rescue capabilities of this critical 
mission in a time when the Coast Guard is being called upon to 
do so much in other areas, such as the migrant interdiction.
    Admiral Michel. Well, sir, I can tell you, as far as your 
district goes, you are actually very well situated. And I know 
for a fact that you are--completely meet our 2-hour standards, 
either from helicopters or stations. There are a number of 
surface stations that operate in that area, there are a number 
of air stations that overlap that area. And, even better, you 
are a full recipient of Rescue 21, which is our system that is 
designed to take the search out of search and rescue. It is 
very much an ISR-type system that actually allows us to 
determine where situations of distress are, pinpoint those 
locations, and immediately dispatch the assets. So you are in 
pretty good shape.
    You know, you have got your district, and I have got the 
entire national SAR system that I have to operate. And it has 
gotten so much better over the years, largely because of 
increased knowledge and increased ability to pinpoint those 
boaters, instead of just having to randomly search out there. 
And boaters have been a part of it, too. They have got--they 
are more connected, and have more communication devices than 
they have ever had in the past. And each one of those devices 
that they take with them provides us with an opportunity to 
determine the--that they are in distress, and to determine 
location, and then send an asset actually out to do the 
business.
    So, we are in good shape. There is more work that can--
obviously, can be done over time. But I am really proud of 
what--the strides that we have made in our search-and-rescue 
system.
    Mr. Zeldin. Thank you, Admiral. And thank you, Chairman, 
for holding this hearing. Very helpful, and I--please thank all 
of your men and women who are serving us very honorably, 
especially in my home congressional district. So thank you.
    Admiral Michel. Thank you, sir.
    Mr. Hunter. Ms. Frankel, do you have anything else you 
would like to ask? OK.
    OK, let's go through--I want to know, too, how you 
prioritize the missions that you do, based on the budget that 
you have.
    Admiral Michel. Well, we have gone through some of the 
performance measures, and, obviously, those are on my task----
    Mr. Hunter. We have a hearing, I think, next month, where 
the GAO looks at the way that you do your own metrics. Right? 
So we have a hearing on that, because you guys do--you 
obviously hold yourselves to high standards, but it is always 
hard in the box, when you are in the box, to gauge how you are 
doing in the box. Right? It is good to have somebody else.
    But not necessarily the performance standards, but how do 
you--when you move stuff around, you say, ``Look, we need to 
spend more time on this right now, we don't have enough to do 
this,'' give me an example of what you have done in the last 6 
months, for example, where you have had to move stuff and 
reprioritize.
    Admiral Michel. I will give you a specific example. And 
this goes to General Kelly's issues. So the instability down in 
Central America is causing all kinds of problems. Just a 
symptom of this was 50,000 or so unaccompanied children showing 
up at our border. You know, their parents thought it was better 
to turn their children over to coyotes for a potential life in 
the United States, rather than live in a country like Honduras, 
with a murder rate that is unbelievable.
    As a matter of fact, just as it stands right now, if you 
are a boy born in Honduras today, you have got a 1 in 9 chance 
of being murdered before the age of 25. And that is, in large 
part, created because of the transnational criminal 
organizations that are creating corruption, instability, lack 
of rule of law in that area. And our Commandant felt it was 
very important, and he tasked me with moving assets into the 
transit zone to have a more significant presence to get at that 
75 percent of the targets that the Nation may never get another 
whack at again. And he told me, ``Work with our area commanders 
to figure out where we are going to take risk in other mission 
sets.'' And we came up with a plan.
    We were able to--I am not going to talk specific numbers. I 
can talk to you afterwards about specific numbers, but I don't 
want the narcos to know exactly the numbers we have downrange 
right now. But a significant increase in the amount of surface 
vessels, flight deck-equipped ships sent down there, and they 
were taken from other mission sets. They were taken from--for 
example, we were going to send a ship up to Arctic Shield to 
work up off the north coast of Alaska to ensure that we had a 
national presence up there for the increased human activity 
that is occurring in the Arctic.
    That ship is not going to go there now. We may ultimately 
divert, if Shell decides they want to drill, and we are going 
to have to take a look at that. But we took additional risks 
there. We took additional risk in the offshore fisheries set, 
and tried to replace that with some additional knowledge and 
monitoring capabilities, so that we could free up a ship there. 
Our Commandant turned down multiple requests from combatant 
commanders--I won't--I can tell you which ones, if you want to 
ask about them--multiple demand signals from combatant 
commanders, and our Commandant said, ``No, we are going to put 
our emphasis here, in the Western Hemisphere transit zone.''
    And he tasked me with meeting those priorities, and I have 
got a finite basket of things, and I juggle those things, and I 
try to backfill to the extent possible. But those ships that 
are down there, protecting the Nation--not only that, but our 
neighbors, they came from other mission areas, and they were 
not sitting in port doing nothing. We took additional risk in 
those mission sets of fisheries enforcement, marine 
environmental protection, and the other things that Coast Guard 
cutters do.
    Mr. Hunter. So let's say that the CENTCOM combatant 
commander asks you for Coast Guard ships to patrol the Arabian 
Gulf, for instance, or to protect--do whatever, watch for small 
boats under the big ships. Do you take into consideration the 
Asia pivot? Is that what you are--or is it a drug-only kind of 
thing?
    Admiral Michel. No, sir. We take into--all that into 
account. As a matter of fact, I was just up testifying on the 
cooperative strategy. Matter of fact, you heard--at the hearing 
that you held jointly--and part of the sort of agreement 
between the Navy and the Coast Guard was, as the Navy pivoted 
to the Pacific, and was less able to provide Navy hulls in the 
Western Hemisphere, the Coast Guard would try, to the extent 
possible, backfill for those hulls here. But we weren't going 
to be able to send those hulls over to the Pacific area that we 
had done in the past. And I will tell you that the Coast Guard 
has got a very relevant role out there in the Pacific. If you 
are taking a look at who is operating, and who is doing a lot 
of the stuff out there, it is the Coast Guard. Whether it is 
China Coast Guard, Philippine Coast Guard, Vietnam Coast Guard, 
et cetera. And there is a huge role.
    But we don't have the ships right now to be able to send 
it. Same thing for the piracy mission that CENTCOM has. And 
there is also the Africa Partnership Station that AFRICOM wants 
us to do. And there is a huge migrant problem in the 
Mediterranean--actually, much bigger than ours, from a maritime 
perspective--that UCOM would like us to assist with. But there 
is only so much Coast Guard to go around. There is way more 
demand out there for Coast Guard than there is for Coast Guard 
to back it up. And we have had to tell people no.
    Mr. Hunter. So let's go on that. If you guys--you are in a 
sea--I mean when is the last NSC going to be done, and the 
shipyard closed down? Eighteen? Seventeen?
    Admiral Michel. Seventeen or eighteen when it is actually 
full up and ready to go. We have already contracted for it, 
so--but I think 17 or 18 for--number 8 is online.
    Mr. Hunter. And so--I mean you have a few years, then, to 
look at--if you kept the line hot, and you could punch out one 
more NSC, would that increase your capability?
    Admiral Michel. Well, certainly, adding another NSC would 
increase our capability. We can't afford it. I mean I can just 
tell you flat out, we cannot afford a ninth National Security 
Cutter. The Offshore Patrol Cutter, which is our lower end 
workhorse that we need, we have got to get that one online, and 
we cannot afford another ninth National Security Cutter. We 
just don't have the money for it.
    Mr. Garamendi. It is operation and maintenance.
    Admiral Michel. It is everything, sir. It is the 
acquisition cost, it is the operation and maintenance, and it 
is even the facilities that would have to be constructed. I 
mean these are bigger ships than existed before, and they need 
additional pier space, power considerations, additional 
training dollars. I mean this is a very high-end ship. And, 
frankly, we don't need a ninth NSC. We need to get the OPC line 
underway and start replacing those really old Medium Endurance 
Cutters. That is our priority, sir.
    Mr. Hunter. But that could change, based on who the 
Commandant is. Remember Commandant Papp was talking about an 
extra NSC. That was 2 years ago. But it is based on whatever 
priorities your leadership has. Right?
    And what I am saying, you only have a small window, if you 
choose to take advantage of it. If your minds don't change in 
the next 2 or 3 years, and you won't have one--but if you do, 
you only have a hot line, which mitigates a lot of that cost. I 
mean you said it is almost $100 million just to design the OPC. 
Right? Just to put it on paper so that they can build it you 
are talking about $100 million. Right? Or $70 million.
    Admiral Michel. To do the detailed design work, yes, sir.
    I talked to Admiral Zukunft. I will speak for him. He says 
we can't afford, don't need, don't want a ninth NSC. We need 
the Offshore Patrol Cutter. And I can't say that in any clearer 
terms, sir. And I can't speak for Admiral Papp, but I work for 
Admiral Zukunft right now.
    Mr. Hunter. On a second note, on--when it comes to the 
FRCs, the FRCs were supposed to be a clean recompete of the 
exact same ship that they are--that you already built. Is that 
correct?
    Admiral Michel. No, sir. We allowed some variability, and 
the RFP reflects that. We weren't looking for a complete cookie 
cutter down to the bolt level. At the same time, we are not 
interested in--really, in having two classes of ships. So we 
set some basic parameters.
    So the whole form has to be the same. The main propulsion 
systems have to be the same. The generators have to be the 
same, but we allowed for some flexibility in the auxiliary 
systems, because we wanted--we didn't want to just give it to 
the shipyard, who is building them now, who is using all that 
exact same stuff. We wanted to provide some flexibility to 
allow for a decent recompetition amongst partners. So we did 
allow for some variability in that second class of ships. But 
the basic machinery systems, hull form, those type of things 
will have to be consistent, because we don't want to have two 
different classes of ships to support----
    Mr. Hunter. How about cost? What is your cost threshold, 
when it comes to changing the design parameters of a ship, mid-
build?
    Admiral Michel. Well, I mean, the cost is going to be 
whatever the proposer says, ``I can build the''----
    Mr. Hunter. Well, it is not going to be less, right, than 
you are doing--I mean if you make changes to an existing ship 
that is already being built on a hot line, you don't think the 
cost goes down with variations, do you?
    Admiral Michel. Well, our desire is that the cost is going 
to go down. I mean that is why we would recompete. Not for a 
more expensive ship.
    Mr. Hunter. OK. But if you are building a ship, and you 
make changes to that ship, and let's say that you recompete it 
and it goes to a different company that is not making them now, 
that has never made them, so they have got to start a brandnew 
line, you don't think that will be more expensive than what you 
are paying now?
    Admiral Michel. My hope is that it isn't. I mean we 
purchase and plan----
    Mr. Hunter. Well, not your hope----
    Admiral Michel [continuing]. So that we can share this 
parent craft with other people. And this parent craft has been 
built. There is a practice that this parent craft has been 
built. The recompete was not designed to cost the taxpayers 
more money, and----
    Mr. Hunter. But if you make variations, it costs more. I 
mean that is always--whether it is an airplane or a ship, if 
you make changes it costs money. That is--requirement creep is 
a real thing, right?
    Admiral Michel. This is not designed--requirement creep. 
This is designed to recompete a class of ships for hulls number 
33 to 58. Well, I don't want to say it is my hope, but I think 
somebody is going to come in here and want to do this work, and 
they are going to want to do it at a profitable, yet affordable 
price. And that is how we have queued the program up, sir.
    Mr. Hunter. I guess the committee, then, had a 
misunderstanding of what the recompete was for. We thought it 
was for the same ship that we agreed to fund in the first 
place, simply having a recompete so you can see if anybody else 
can come in cheaper and make it, not for a changing ship that 
could change on the whim of whoever is in charge of writing the 
requirements for it at that time. I mean that was the--the 
committee's understanding was it was a recompete for the same 
ship.
    Admiral Michel. The basic----
    Mr. Hunter. And you are telling me that that is not the 
case.
    Admiral Michel. Well, it is not going to be an identical 
ship. It is going to be substantially the same in the basic 
parameters of the ship. But there is some flexibility in some 
of the things like the auxiliary equipment systems. We are not 
looking for a photocopy of the other vessel, and the RFP is 
written that way.
    Mr. Hunter. OK. Let's jump over really quick to--part of 
your testimony--I mean, basically, what we are looking at is 
looking at your missions, how you perform your missions by your 
own standards.
    In your testimony you mentioned cybersecurity at ports. 
There is no law that says the Coast Guard is responsible for 
cybersecurity at ports. You all don't have, as far as I know, 
any real core competency in doing cybersecurity. You might have 
some people--you might have a part of your organization that 
does it, but you are not like Cyber Command or anything. So you 
are going to--you are talking about taking on a whole other 
role as the cybersecurity port people.
    Admiral Michel. A number of comments I could make on what 
you said there, sir, and I just want to make sure that we are 
talking from the same set of facts here. So the Coast Guard has 
a number of different responsibilities for cybersafety and 
cybersecurity. And we can talk about both aspects.
    On the cybersecurity side of the house, as far as regulated 
port partners, the Maritime Transportation Security Act places 
the responsibility on the Secretary of Homeland Security to 
avoid transportation security incidents to the maximum extent 
practicable. When you read through what transportation security 
incidents are, that includes from whatever source they may come 
from. And my JAG has opined that that includes security 
breaches that may result in the transportation security 
incidents that arise from cyber. And with the maritime industry 
being incredibly automated today, you can think about the 
various ways that a transportation security incident might come 
along through a cyber incident.
    So, the Secretary--and then delegated to the Commandant--
has responsibilities in this area. And not only that, but also 
has authorities in this area to require vulnerability 
assessments and security plans for security incidents that come 
from cyber. So that--yes, we have not only authority, but 
responsibility in cybersecurity for MTSA-regulated partners.
    Even beyond that, with the automation in the industry 
today--for example, engine control systems, industrial control 
systems, and things like that, are all controlled by computers, 
many of which are networked. And, even from a security 
perspective aside from a safety perspective, the Coast Guard 
has to be able to get at that.
    So, for example, we have ships right now that are being 
pushed patches for their main engine. And the master of the 
ship may not even know that his computer software is being 
changed on his engine. And we have had a circumstance where an 
offshore drilling rig was pushed a patch by an authorized 
person, but the patch had a bug in it, caused the offshore 
drilling platform to go off-station. And the Coast Guard has 
got bunches of responsibilities for regulating safety of 
machinery systems on offshore platforms, on ships, on port 
infrastructure, et cetera, et cetera.
    All these network systems and automation that are being 
brought online, the Coast Guard has clear responsibility and 
authority in these areas, sir. And I mean I am happy to provide 
you background information, but I don't even think this is sort 
of--at least, in my world----
    Mr. Hunter. I would say----
    Admiral Michel [continuing]. Not debatable.
    Mr. Hunter. DHS has the authority and the responsibility to 
take care of that.
    What I am trying to get at here is, though, you keep 
telling us all the different things that you are going to be 
doing, but none of them you are able to do extremely well, 
except save people. I mean that is what your--that is the 
number-one thing that you do, and do well, and you have the 
assets to do it well. Everything else has kind of fallen by the 
wayside a little bit. I mean it is like you said, the number of 
ships that SOUTHCOM has, you have increased those, but those 
come from somewhere else.
    So now, you are going to add cyber into there, where the 
Coast Guard is going to be responsible for making sure that the 
software patches that get pushed out to drilling platforms are 
bug-free? You guys are going to be jack of all trades, master 
of none, except for saving people, because I think you are 
doing too many things.
    I mean are you going to start your own Cyber Command within 
the Coast Guard? And what is it going to cost? And how many 
people are going to be in it? And where are you going to take 
the people from? And where are you going to get the money from?
    Admiral Michel. We already have a Cyber Command in the 
Coast Guard, actually, sir. There is an admiral who is the head 
of Coast Guard Cyber Command, who works directly for me. And we 
have--I don't want to talk specific numbers of people--we have 
quite a large number of people, and a large investment already 
in this. We already have a Coast Guard admiral who is in U.S. 
Cyber Command as their J7, and we have a whole staff of people 
who work on U.S. Cyber Command.
    The Coast Guard is a very unique organization, sir. 
Remember, we are the only one in Government that is an armed 
force and has all the connections there, a member of the 
intelligence community, a law enforcement agency, a regulatory 
agency, a humanitarian agency, a transportation agency, an 
environmental agency, and all these other things. We operate in 
.mil, .gov, and .com, and there is nobody else out there that I 
am aware of that does this. The Coast Guard is already deeply 
into cyber on a whole bunch of different areas.
    As far as our cyber responsibilities for the maritime----
    Mr. Hunter. Is there--let me ask you this.
    Admiral Michel. Sir.
    Mr. Hunter. Is there crossover from Cyber Command on the 
military side to you guys?
    Admiral Michel. Absolutely. Yes, sir. Yes, sir. Always has 
been and always will be. The Coast Guard rides on the Defense--
Department of Defense information network. I mean we are .mil 
players. But we also have huge responsibilities in Homeland 
Security in the .gov realm, and then we have a whole regulated 
industry. We are the only one like that, that I am aware of. 
And we have got responsibilities in all those areas, including 
cybersafety and cybersecurity.
    Mr. Hunter. And the ranking member just mentioned, too, we 
would like to have--if we could, we would do a classified 
hearing on what you guys do on Cyber Command. And I am curious, 
too, how you prioritize, and what percentage--what your 
breakdown is, when it comes to missions, where you say, ``We 
don't have enough of this, but we have enough of something 
else,'' meaning you don't have enough boat drivers, for 
instance, but you are putting people in Coast Guard Cyber 
Command. Right?
    I mean they had to come from somewhere. You are dealing 
with a finite pool, and I am just trying to understand where 
you are hurting or sacrificing to keep putting people out in 
these, you know, different organizations, because that is 
fairly new, I would guess, what, your Coast Guard Cyber 
Command, 5 years old, 10 years old, 2 years old?
    Admiral Michel. It is relatively new. And, like anything in 
Coast Guard, kind of bits and pieces have been patched together 
from previous organizations, or from other parts of the Coast 
Guard.
    The thing about our Cyber Command things, now, you may just 
think it is all just about defending our networks. It is not 
all about that. And I don't want to get too much into 
classified here, but we use cyberspace also to enhance our 
mission accomplishment. So getting at some of the target sets 
that we talked about before, whether a transnational criminal 
organizations or a search-and-rescue case, are actually aided 
by our understanding of what actually goes on in cyberspace.
    I don't want to get into too many details. Maybe we save 
that for a future classified hearing. But the Coast Guard is 
deeply in this area, because of where we sit in Government, and 
where our responsibilities are.
    Mr. Hunter. The ranking member is recognized.
    Mr. Garamendi. The cyber area is really important. I raised 
part of this just in ISR, which is arguably cyber. And we 
really should have a classified hearing on it and go into it. I 
know we did this about 3 years ago. I think it was in this 
room, around that table, and we probably ought to go back and 
redo that.
    There are some questions that I just--I think I had better 
get to here. I had my notes, but I just pushed them off to one 
side.
    I have yet to go to a hearing where we haven't talked about 
sequestration. And I think this is something that I am 
concerned about as we rewrite the Coast Guard reauthorization, 
which we are probably going to do, at least hopefully do this 
year. We would like to do this year?
    Mr. Hunter. Yes.
    Mr. Garamendi. And I just noticed from the Committee on 
Transportation and Infrastructure that we are constantly 
decreasing the authorization to match the appropriation. We 
have done that almost always, it seems. And it seems to me that 
what we are doing is to continue to downsize critical 
organizations. In this case, downsizing the--we did it last 
time we authorized. The authorization was--I forget what the 
number was, but the authorization up here, the appropriation 
came down here, and we brought the authorization down to match 
the then-appropriation.
    And I am raising this issue because it is of deep concern 
to me that, over time, we will continually diminish the role of 
numerous organizations--in this case, the Coast Guard. And so I 
want to bring this issue up. It is, in part, driven by 
sequestration, which, over time, downsizes everything.
    Could you comment on this, the role or the impact of 
authorizations, and then the appropriations? And the chairman 
appropriately raised a very significant question about your 
appropriation level in the President's budget. So how did all 
this play together?
    Admiral Michel. Well, let me see if I can take a look at 
it.
    You know, obviously, the authorizing committee set--gave 
the Coast Guard authorities. They also set personnel, they set 
authorized--and, over time, there has been a disconnect between 
authorizations and appropriations. Or maybe authorizations have 
followed appropriations.
    Back--if you look kind of at the history, my understanding 
of the history is you used to have to have an authorization 
before you could have an appropriation, and then they became 
kind of separate things. And I guess you are saying maybe they 
are coming back in line, but the authorization is following the 
appropriation.
    I guess my comment on that is that authorization matters. 
It matters a lot. It sends a signal. I am concerned, with you, 
that if we are sending a signal that less is being authorized, 
then that is not a good signal to send. And I take my cues from 
you on that, sir.
    You know, the actual numbers that the administration would 
support in any sort of proposed authorization bill, we would 
have to run that through the administration process. But I 
think that authorizations do matter, and they definitely send 
signals, and they should send signals to appropriators, as 
well. I mean, like I said, my understanding of the history was 
you weren't supposed to make an appropriation without an 
authorization. I am not a historian, but just--I guess just 
your average citizen's knowledge----
    Mr. Garamendi. I raised this issue, I think, more for us, 
my colleagues on this committee, in that we are being driven by 
the sequestration. It is downsizing most everything, and 
forcing the kind of decisions that the President made about how 
to deal with the Department of Homeland Security and who is 
going to get cut. And the chairman appropriately raised the 
very serious question that it is the Coast Guard that took the 
hit.
    I want to be aware that last time we authorized the Coast 
Guard, we matched the authorization to the then-appropriation, 
which was driven by sequestration. We don't have to do that. We 
don't have to do that. And when we do that, we downsize, in a 
permanent--in a more permanent way. Because, when it comes back 
to increasing to meet the needs of the Coast Guard and this 
Nation's security, we then have to find the money. We have to 
find the offset, which is extremely difficult to do.
    So, my concern here--and I guess this is as much for my 
colleagues--it is for my colleagues. We must be aware of what 
we are setting in place for the next round. And I want us to be 
very, very cognizant that when we bring down the authorization, 
and we want to build a new offshore cutter, or we want to build 
a billion-dollar icebreaker, we have got to increase the 
authorization. And that requires an offset. Now, it is bad 
enough to get the money for the appropriation. And if I am 
wrong about this, then I would love to have a debate. But I 
think I am right. And I am troubled by it.
    There is a whole series of questions. I do want to go in--I 
do want to have that cybersecurity issue, because it covers a 
lot of things, some of which I am interested in, which is the 
navigational issues, and we can talk about those later. We did 
talk about the issue of resources on many of your work, 
particularly patrolling off the California coast--or, excuse 
me, the west coast--on the marine environment, which I suspect 
you are shifting resources. I heard you shifted resources out 
of that to deal with other areas.
    Of particular interest to me is the integration of the 
military assets to assist the Coast Guard. We had a discussion 
a moment ago with the chairman about the Coast Guard assisting 
the military. They ought to go the other way, also. Military 
has a lot of assets that are used off the coast. Could those 
assets assist the Coast Guard in the ISR? They are obviously 
not going to go out and make arrests for fishing fleets that 
are doing the wrong thing, but they might be able to identify 
where the fishing fleets are.
    So, if we can have a discussion about that, I don't think 
this is going to work right now, because I think we are about 
to shut down. But I want to have that discussion about how we 
integrate the military assets to assist the Coast Guard in its 
role. So if you can think that through, and maybe the next time 
we get together we can pick that up.
    And if there is something that is pending, the chairman and 
I are going to write, together with our 52 other colleagues, a 
National Defense Authorization Act. And we could tell them to 
help you. OK? So let us know.
    I am finished. Thank you, Mr. Chairman.
    Mr. Hunter. Thank the ranking member.
    Hey, let's end it this way, Admiral, on a story. Could you 
tell us about the first drug bust you had after you left here 
and went out and captained a ship?
    Admiral Michel. I will tell you this is maybe not the 
first, but the first really memorable one. So in the--this 
was--I was first assigned to Coast Guard Cutter Decisive in 
1985 and I came from the Coast Guard Academy. And we were 
scheduled to be on patrol during the whole month of December, 
and I had never missed Christmas with my parents ever before, 
and they lived in Tampa, Florida--ever before.
    And so, we were patrolling the days before Christmas, and 
we got an intelligence report about a mother ship that was off 
the west coast of Florida, and it was running small boats in, 
and things like that. And I was the boarding officer, went on 
board that ship. And at that time they just had the bales out 
on deck, they didn't even bother hiding it in hidden 
compartments, or anything like that. So we arrested all these 
dopers, and things like that. We brought that boat in on 
Christmas Eve, got specific permission to bring it in to Tampa 
on Christmas Eve, and I stepped off that cutter and was able to 
spend Christmas with my parents.
    And I would also like to say that was the best and my only 
gift that I ever got from a narco trafficker, was Christmas at 
home with my parents, Christmas 1985, sir.
    Mr. Hunter. Good. Well, with that, the hearing is 
adjourned. Thank you.
    [Whereupon, at 3:19 p.m., the subcommittee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
